                 Better Procedures Are Needed to Locate,
                    Retrieve, and Control Tax Records

                                 September 2004

                       Reference Number: 2004-10-186




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 28, 2004


      MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT
                     DEPUTY COMMISSIONER FOR SERVICES AND
                     ENFORCEMENT


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - Better Procedures Are Needed to Locate,
                                    Retrieve, and Control Tax Records (Audit # 200310008)


      This report presents the results of our review to determine whether the Internal
      Revenue Service (IRS) has an adequate system to ensure tax records can be located
      and retrieved timely. Each of the IRS operating divisions and certain IRS functional
      units have an ongoing need to obtain tax returns and related information. IRS
      employees made approximately 15.4 million requests in Fiscal Year 2003 for current
      and prior year tax records stored by the IRS. Consequently, the IRS systems and
      processes to control, locate, and retrieve these records are critical to the functioning of
      the IRS.
      In summary, some tax records we requested could not be located or were not retrieved
      timely. The IRS does not track specific requests for tax records stored at IRS
      campuses1 or at the Federal Records Centers,2 making it difficult to determine where in
      the process requests were lost or delays occurred. We requested a random sample of
      1,587 tax records that included tax returns and related information for examination
      determinations, Earned Income Tax Credit adjustments, and Trust Fund Recovery
      Penalty3 assessments. For 231 requests (14.6 percent), the IRS did not provide the
      requested tax record or did not provide an adequate response as to the disposition of


      1
        The campuses are the data processing arm of the IRS. They process paper and electronic submissions, correct
      errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
      2
        The Federal Records Centers are located throughout the nation and provide long-term storage for the IRS and other
      Federal Government agencies.
      3
        The Trust Fund Recovery Penalty is assessed against any person determined responsible in a business operation for
      nonpayment of employment taxes that were withheld from employees’ wages or salaries. The responsible person(s)
      are liable for the amount of the employment taxes not paid, and their assets can be used to satisfy this liability.
                                                           2


the tax record, such as whether the tax record had been destroyed or charged out to an
IRS employee. We also tested whether the IRS was able to retrieve tax records timely.
Based on our random sample of 1,587 requests for tax records (less those we did not
receive), the average time from the date of our request to the date on which the
response was received in our office was approximately 23 calendar days; however,
133 requests took over 40 calendar days to complete.4
The inability to accurately track the disposition of taxpayer records after they have been
requested by IRS employees is a serious weakness in the records storage and retrieval
process. Because of its responsibility to maintain the confidentiality of taxpayer records,
the IRS must maintain full accountability for records in its possession. Moreover, to
ensure employees can count on receiving records timely in performing their duties, it is
incumbent upon the IRS to ensure the process of retrieving records operates efficiently.
Without recording on its computer systems when requests are filled, the IRS cannot
monitor the disposition of tax records or the timeliness of its processes.
We also found that workpapers for Trust Fund Recovery Penalty assessments stored at
various local field offices were difficult to request and obtain. After contacting personnel
at local field offices, we were advised there are no national procedures for requesting
these workpapers. We identified varying, sometimes conflicting, methods for
determining which office to contact when submitting a request and how to make the
request. We requested, using local procedures, a random sample of 199 workpapers
for Trust Fund Recovery Penalty assessments. After 3 months, we had not received a
response for 58 (29.1 percent) of our 199 requests. The average time to receive the
141 responses was 24 calendar days; however, 28 responses were received in excess
of 40 calendar days.
If a taxpayer questions, appeals, or otherwise challenges the Trust Fund Recovery
Penalty assessment, it is critical for the IRS to be able to locate and timely retrieve the
related workpapers. Employees from the Taxpayer Advocate Service indicated that
problems obtaining the workpapers for Trust Fund Recovery Penalty assessments
caused the IRS to use additional resources in an attempt to reconstruct the workpapers.
This delay in resolving a taxpayer’s problem can also lead to the Federal Government
abating the penalty if the information cannot be reconstructed. A considerable amount
of time on the part of IRS employees is used to document the basis for the penalties
assessed. Loss of this work due to inadequate storage and retrieval procedures is a
waste of Federal Government resources.
We recommended the Chief, Agency-Wide Shared Services (AWSS), and the
Commissioner, Wage and Investment (W&I) Division, ensure the quality and timeliness
of the IRS Records Management Program by developing a method to track specific

4
 Because the IRS indicated that it did not have a time standard for the entire records ordering and retrieval process,
we allowed a maximum of 40 calendar days to complete the requests including time for receipt of the request by the
appropriate office, identification of the tax record, shipment of the record back to the requester, special research for
destroyed tax records, and interaction with the Federal Records Centers.
                                           3


requests for tax records that will assign accountability, respond to customer problems,
and provide management information for the Program. In addition, the Chief, AWSS,
and the Commissioner, Small Business/Self-Employed (SB/SE) Division, should update
procedures to include instructions for requesting workpapers for Trust Fund Recovery
Penalty assessments. This should include guidance for determining to which local field
office a request should be sent. Further, the Chief, AWSS, and the Commissioner,
SB/SE Division, should ensure the quality and timeliness of the IRS Records
Management Program by developing a method to track specific requests for
workpapers for Trust Fund Recovery Penalty assessments that will assign
accountability, respond to customer problems, and provide management information for
the Program.
Management’s Response: IRS management agreed with our recommendations. The
AWSS and the W&I Division will modify an existing computer system to better track
requests and provide improved service to requesters. The SB/SE Division is finalizing
procedures that address the retrieval of workpapers for Trust Fund Recovery Penalty
assessments and will remind employees that workpapers should be filed in the office
where the penalty was assessed. Additionally, the AWSS developed online training and
interactive process guides that will be available to SB/SE Division employees. The
SB/SE Division will attempt to modify an existing computer system that automates the
document retirement process of workpapers for Trust Fund Recovery Penalty
assessments. If the SB/SE Division is unable to modify the existing computer system, it
will work with the AWSS to identify other alternatives. Management’s complete
response to the draft report is included as Appendix IV.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.
                                   Better Procedures Are Needed to Locate,
                                      Retrieve, and Control Tax Records




                                                  Table of Contents


Background ............................................................................................... Page 1
Some Tax Records Could Not Be Located or Were Not
Retrieved Timely ....................................................................................... Page 3
         Recommendation 1: .......................................................................Page 7

There Is No Consistent Process to Retrieve Workpapers
for Trust Fund Recovery Penalties ............................................................ Page 8
         Recommendation 2: .......................................................................Page 11
         Recommendation 3: .......................................................................Page 12

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 16
Appendix III – Report Distribution List ....................................................... Page 17
Appendix IV – Management’s Response to the Draft Report .................... Page 18
             Better Procedures Are Needed to Locate,
                Retrieve, and Control Tax Records

                      The Federal Records Act of 19501 requires the head of each
Background
                      Federal Government agency to maintain agency records.
                      Records include papers, machine-readable materials, or
                      other documentary materials made or received as evidence
                      of the agency’s activities. The Internal Revenue Service
                      (IRS) stores millions of Federal records. These records
                      include documentation of agency policies, decisions, and
                      operations; however, the majority of IRS records involve tax
                      records, most commonly tax returns and other related tax
                      documentation including information supporting additional
                      tax assessments or abatements. Although the IRS has
                      recently increased the volume of its electronic tax records, it
                      still maintains a significant number of paper tax records.
                      Many types of tax records, including tax returns and
                      additional tax assessments or abatements, are assigned
                      document locator numbers as a means to help retrieve
                      individual tax records. Approximately 275 million new tax
                      records2 are stored each year. These tax records are initially
                      stored for up to 1 year at an IRS campus3 and then
                      transferred to a Federal Records Center that provides
                      long-term storage for the IRS and other Federal Government
                      agencies. After the specified retention period has expired,
                      the tax records will be destroyed.
                      Some tax records, including case files on collection
                      enforcement actions, are not given document locator
                      numbers and are stored and retrieved using local IRS field
                      office procedures. Depending on local storage space, these
                      tax records may be transferred to Federal Records Centers.
                      These types of tax records are also destroyed after a
                      specified retention period.
                      The IRS stores over 5.7 million cubic feet of tax records.
                      These tax records must be stored by the IRS in a manner in


                      1
                        Title 44, Chapter 31, Section 3102, United States Code.
                      2
                        Approximately 194 million are documents from taxpayers, including
                      tax returns and payment vouchers, while approximately 81 million are
                      IRS actions or changes to taxpayer accounts including names, addresses,
                      payment transfers, levies, liens, installment agreements, offers in
                      compromise, and additional tax assessments or abatements.
                      3
                        The campuses are the data processing arm of the IRS. They process
                      paper and electronic submissions, correct errors, and forward data to the
                      Computing Centers for analysis and posting to taxpayer accounts.
                                                                                       Page 1
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

         which they can be identified and easily retrieved because of
         the importance of these records to the IRS’ ability to enforce
         the tax laws and to support IRS actions in the event of a
         legal proceeding. Each of the IRS operating divisions and
         certain IRS functional units have an ongoing need to obtain
         tax returns and related information. IRS employees made
         approximately 15.4 million requests in Fiscal Year 2003 for
         current and prior year tax records stored by the IRS.
         Consequently, the IRS systems and processes to control,
         locate, and retrieve these records are critical to the
         functioning of the IRS. Moreover, because of taxpayer
         privacy rights, the IRS must maintain an adequate record of
         the chain of custody for any taxpayer records which are
         charged out to IRS employees in the performance of their
         duties.
         The Records Management Program within the IRS strives to
         improve the quality and reduce the quantity of records by
         providing sound management practices and techniques in
         the creation, preservation, retrieval, and disposition of
         records. The Chief, Agency-Wide Shared Services
         (AWSS), has overall responsibility for the Records
         Management Program, while the Commissioner, Wage and
         Investment (W&I) Division, has the day-to-day operation of
         maintaining tax records stored at IRS campuses.4 The
         Commissioner, W&I Division, and the Commissioner,
         Small Business/Self-Employed (SB/SE) Division, have
         responsibility for tax records stored at their respective local
         IRS field offices.
         This audit was performed with information from and
         discussions with employees nationwide in the Office of
         AWSS, Criminal Investigation function, Large and
         Mid-Size Business (LMSB) Division, Office of Appeals,
         Office of the National Taxpayer Advocate, SB/SE Division,
         W&I Division, and Federal Records Centers, during the
         period January 2003 through July 2004. The audit was
         conducted in accordance with Government Auditing
         Standards. Detailed information on our audit objective,


         4
          The IRS issued a public announcement on August 16, 2004, that this
         File Activity will be offered for competitive sourcing under the Office
         of Management and Budget Circular No. A-76.
                                                                          Page 2
                       Better Procedures Are Needed to Locate,
                          Retrieve, and Control Tax Records

                                scope, and methodology is presented in Appendix I. Major
                                contributors to the report are listed in Appendix II.
                                Requests for tax records originate from IRS employees
Some Tax Records Could Not
                                performing many different IRS functions. IRS employees
Be Located or Were Not
                                request tax records using single request or batch request
Retrieved Timely
                                forms. These requests can be made through the computer;
                                by mail, fax, or telephone; or in person. The most common
                                method of requesting tax records to which the IRS assigns
                                document locator numbers, such as tax returns, is through
                                the use of an IRS computer system known as the Integrated
                                Data Retrieval System (IDRS).5
                                When a request for a tax record with a document locator
                                number is made using the IDRS, the request is printed and
                                sent to the Files area in the appropriate IRS campus.
                                However, the IDRS is not designed to track specific
                                requests to identify whether a tax record has been located,
                                sent to the requester, or received by the requester. A
                                requester may have to wait for a significant period of time
                                for a tax record or for a paper response indicating a tax
                                record has been destroyed or previously sent to another IRS
                                employee (the response should include that employee’s
                                contact information).
                                To test the IRS’ ability to locate and retrieve tax records, we
                                used the IDRS to request a random sample of 1,587 tax
                                records6 that included tax returns and related information for
                                examination determinations, Earned Income Tax Credit
                                adjustments, and Trust Fund Recovery Penalty7
                                assessments. For 231 requests (14.6 percent), the IRS did
                                not provide the requested tax record or did not provide an
                                adequate response as to the disposition of the tax record,
                                such as whether the tax record had been destroyed or



                                5
                                  The IRS computer system capable of retrieving or updating stored
                                information; it works in conjunction with a taxpayer’s account records.
                                The requester uses the document locator number and the IDRS to
                                electronically prepare a Return Charge-Out (Form 4251) to request a
                                specific tax record. Form 4251 is printed at one of the IRS campuses
                                and, if necessary, routed to one of the Federal Records Centers based on
                                the coding of the document locator number.
                                6
                                  See Appendix I for an explanation of the sample.
                                7
                                  The Trust Fund Recovery Penalty is defined on page 8 of this report.
                                                                                                Page 3
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

         charged out to an IRS employee. Table 1 summarizes the
         results of our sample.
                    Table 1: Summary of Tax Records Requested
                                                     Tax Record
                                                     Requested
           Type of Tax Record Requested   Requests                Percentage
                                                      Was Not
                                                      Provided
          Individual tax returns              397         26          6.5%

          Individual examinations             199         12          6.0%
          Earned Income Tax Credit
                                              210         49        23.3%
          adjustments
          Trust Fund Recovery Penalty
                                              397        109        27.5%
          assessments
          Business tax returns                192         11          5.7%

          Business examinations               192         24        12.5%

          TOTAL                             1,587        231        14.6%
         Source: Treasury Inspector General for Tax Administration (TIGTA)
         review of 1,587 requests for tax records.

         For 154 of the 231 requests, we received no response from
         the IRS as to the disposition of the records. When
         contacted, IRS management explained that specific requests
         for tax records are not tracked and they could not determine
         where in the process our 154 requests were lost. For 52 of
         the 231 requests, we received a response that the request
         could not be completed because it did not match information
         in the Files area or at the Federal Records Center. If a tax
         record is not found, the request is supposed to be returned
         with information as to whom it was last sent or why it could
         not be found. Nonetheless, this information was not
         provided. Some of our requests were for older tax records,
         so the tax records may have been appropriately destroyed.
         However, for others, we checked the taxpayer account and
         confirmed the document locator number was current for the
         tax record we requested. We could not determine why the
         IRS was unable to locate these records.
         In addition, for 13 of the 231 requests, the response by the
         IRS did not include enough information for us to determine
         why the requests were not filled. These 13 response
         documents included either no information or incomplete
         information. Further, we received 12 responses that
                                                                     Page 4
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

         contained the wrong tax record because an IRS employee or
         Federal Records Center employee transposed the digits
         within the document locator number when attempting to
         locate the tax record. Table 2 shows further details for each
         of the types of documents we requested.
                Table 2: Exceptions Identified for Tax Records Requested
                                                                   Provided
                Type of Tax    Response Not Tax Record Incomplete
                                                                  Wrong Tax
              Record Requested   Received   Not Found Response
                                                                    Record
             Individual tax
                                      24            0            1           1
             returns
             Individual
                                       9            0            0           3
             examinations
             Earned Income Tax
                                      38            6            3           2
             Credit adjustments
             Trust Fund
             Recovery Penalty         67          36             4           2
             assessments
             Business tax returns      6            2            2           1
             Business
                                      10            8            3           3
             examinations
             TOTAL                   154          52            13          12
         Source: TIGTA review of 1,587 requests for tax records.

         We also tested whether the IRS was able to retrieve tax
         records timely. Based on our random sample of
         1,433 requests for tax records (1,587 less the 154 requests
         for which we did not receive a response), the average time
         from the date of our request to the date on which the
         response was received in our office was approximately
         23 calendar days; however, 133 requests (9.3 percent) took
         over 40 calendar days to complete.8 Because the IRS does
         not track on its computer system whether the requests were
         filled, we could not determine where in the process the
         delays occurred. Table 3 shows our summary results of the
         timeliness of responses for each type of tax record
         requested.


         8
           Because the IRS indicated that it did not have a time standard for the
         entire records ordering and retrieval process, we allowed a maximum of
         40 calendar days to complete the requests including time for receipt of
         the request by the appropriate office, identification of the tax record,
         shipment of the record back to the requester, special research for
         destroyed tax records, and interaction with the Federal Records Centers.
                                                                         Page 5
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

            Table 3: Timeliness of Responses for Requested Tax Records
                                                                       Responses
                                                        Average
                     Type of               Responses                    Over 40
                                                        Calendar
               Tax Record Requested        Received                    Days After
                                                         Days
                                                                        Request
          Individual tax returns                 373        27.2             70

          Individual examinations                190        25.5             16
          Earned Income Tax Credit
                                                 172        31.1             25
          adjustments
          Trust Fund Recovery Penalty
                                                 330        20.6               5
          assessments
          Business tax returns                   186        17.3               9

          Business examinations                  182        17.6               8

          TOTAL                                1,433        23.4            133
         Source: TIGTA review of 1,587 requests for tax records less
         154 requests that were not received.

         The ability of the IRS to timely perform its taxpayer service
         and tax enforcement duties is hindered by problems and
         delays in obtaining appropriate records. Tax records need to
         be available and quickly retrieved to help answer questions
         or support decisions. The IRS is not able to provide any
         tracking information related to unfilled or late requests. For
         requests for which no response is received, the only option
         for an IRS employee is to submit another request and wait
         for another extended period of time to determine if the
         request is filled.
         We discussed the record retrieval process and associated
         problems with employees from each of the IRS divisions as
         well as other IRS functions which need to obtain taxpayer
         records. They did not retain information on how often tax
         records were not received or not received timely; however,
         they stated the inability to retrieve documents timely has
         caused problems in carrying out their duties.
         Office of the National Taxpayer Advocate employees stated
         they use additional resources and extend the time to resolve
         taxpayer problems by making repeated requests for tax
         records. If not obtained, they will use additional resources
         in an attempt to help reconstruct the information by using
         computer tax account data or by obtaining the information
         from the taxpayer.
                                                                          Page 6
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

         Employees from the LMSB, SB/SE, and W&I Divisions
         stated that problems retrieving records have made it
         necessary to keep certain examinations open longer than
         necessary, which can also lead to additional interest charges
         if the examinations result in the assessment of additional
         taxes. Moreover, in some instances, decisions about whether
         an examination could have been limited or avoided entirely
         could not be made earlier in the process. Problems with
         retrieving records can also be detrimental to successful
         enforcement of the tax laws if a taxpayer appeals or litigates
         tax issues and the records are not available to support the
         Federal Government’s position. Employees from the
         Criminal Investigation function advised us that tax records
         not received or delayed can hinder the timely completion of
         a case and cause evidentiary problems, limiting the Federal
         Government’s ability to successfully prosecute criminal
         cases.
         We believe the inability to accurately track the disposition
         of taxpayer records after they have been requested by IRS
         employees is a serious weakness in the records storage and
         retrieval process. Because of its responsibility to maintain
         the confidentiality of taxpayer records, the IRS must
         maintain full accountability for records in its possession.
         Moreover, to ensure employees can count on receiving
         records timely in performing their duties, it is incumbent
         upon the IRS to ensure the process of retrieving records
         operates efficiently. Without recording on its computer
         systems when requests are filled, the IRS cannot monitor the
         disposition of tax records or the timeliness of its processes.

         Recommendation

         1. The Chief, AWSS, and the Commissioner, W&I
            Division, should ensure the quality and timeliness of the
            IRS Records Management Program by developing a
            method to track specific requests for tax records that will
            assign accountability, respond to customer problems,
            and provide management information for the Program.
         Management’s Response: The AWSS and W&I Division
         will modify an existing computer system to better track
         requests and provide improved service to requesters.

                                                                 Page 7
                           Better Procedures Are Needed to Locate,
                              Retrieve, and Control Tax Records

                                    The Trust Fund Recovery Penalty is assessed against any
There Is No Consistent Process to
                                    person determined responsible in a business operation for
Retrieve Workpapers for Trust
                                    nonpayment of employment taxes that were withheld from
Fund Recovery Penalties
                                    employees’ wages or salaries. The responsible person(s) are
                                    liable for the amount of the employment taxes not paid, and
                                    their assets can be used to satisfy this liability. The IRS
                                    assessed the Trust Fund Recovery Penalty on approximately
                                    89,000 taxpayers, for a total of approximately $1.1 billion in
                                    Fiscal Year 2003.
                                    The tax record for the assessment of the Trust Fund
                                    Recovery Penalty is recorded on the taxpayer’s account and
                                    assigned a document locator number as previously
                                    discussed. However, the tax record for the workpapers for a
                                    Trust Fund Recovery Penalty assessment, which contain the
                                    documentation to support the IRS’ decision and basis for the
                                    amount assessed against the taxpayer, is not given a
                                    document locator number; these workpapers are stored and
                                    retrieved at local field offices by SB/SE Division personnel.
                                    The workpapers should be maintained for a period of
                                    12 years and can be sent to Federal Records Centers for
                                    long-term storage.
                                    We reviewed the retrieval process for these types of records
                                    because IRS employees advised us that they were
                                    particularly difficult to obtain—the process to obtain this
                                    type of record varies significantly depending on the location
                                    in which it is stored. Based on our review of the process for
                                    retrieving these records, we agree that they are difficult to
                                    obtain. Moreover, some of the records we requested were
                                    not provided by the IRS.
                                    To determine the IRS process for requesting the workpapers
                                    for Trust Fund Recovery Penalty assessments, we
                                    researched the Internal Revenue Manual (IRM).9 However,
                                    the IRM did not contain instructions for requesting this type
                                    of record. We contacted SB/SE Division personnel at
                                    19 local field offices to determine and evaluate the
                                    procedures they were using for requesting the workpapers
                                    for Trust Fund Recovery Penalty assessments. We were
                                    advised they did not have national procedures for requesting
                                    these workpapers. We identified varying, sometimes

                                    9
                                        National procedures for IRS operations.
                                                                                           Page 8
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

         conflicting, methods for determining which office to contact
         when submitting a request and how to make the request.
         We determined that a request for Trust Fund Recovery
         Penalty assessment workpapers should be sent to the office
         in which the assessment was made. However, we were told
         of different methods used to identify this office, such as
         using the coding from the business’ Employer Identification
         Number, the assessment’s document locator number,
         information on the Integrated Collection System,10 and two
         sources of information on the IDRS. We realized later,
         when attempting to request workpapers, that these methods
         could produce conflicting results regarding the office to
         contact. Employees in other offices we contacted stated
         they did not know or we should contact the nearest
         Technical Services office for help. Most locations did not
         require a request form to be submitted, but a few required
         Records Request, Charge and Recharge (Form 2275), and
         one had a specific form it had developed. The offices
         accepted requests by mail, email, and fax; however, some
         offices would accept a request using only one of these three
         methods.
         Since the IRS reorganized its structure into business units
         and is no longer aligned geographically, requests for
         workpapers can originate from any place in the nation.
         Without local knowledge and formal procedures for
         requesting workpapers for Trust Fund Recovery Penalty
         assessments, it is difficult for IRS employees to obtain these
         records when needed to perform their duties.
         We obtained a Master File11 computer extract for taxpayer
         accounts with any tax year that had a Trust Fund Recovery
         Penalty assessment and selected a random sample of
         199 assessments.12 These 199 sample assessments were
         made between April 1987 and March 2004. From various
         discussions with local field offices, we identified the most

         10
            The Integrated Collection System is a computer inventory system
         used by the Collection function. Cases worked by revenue officers are
         controlled on the system, and case actions are documented
         electronically.
         11
            The IRS database that stores various types of taxpayer account
         information.
         12
            See Appendix I for an explanation of the sample.
                                                                        Page 9
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

         likely locations of the workpapers. We then used each local
         field office’s method to request the workpapers. We
         allowed 3 months from the date of our requests to determine
         whether the IRS could provide the records. After 3 months,
         we had received 141 responses.
         The average time to receive these 141 responses was
         approximately 24 calendar days; 28 responses (19.9 percent)
         were received in excess of 40 calendar days. Table 4
         provides details about the responses to our requests.
          Table 4: Responses to Requests for Trust Fund Recovery Penalty
                             Assessment Workpapers
                        IRS Response to Request for                  Number of
            Trust Fund Recovery Penalty Assessment Workpapers        Responses

          Workpapers received                                          119

          Response stated that workpapers had been destroyed             7

          Response stated that workpapers could not be found            12
          Response was not clear—the IRS indicated after further
          contact by telephone that the workpapers were at another       3
          location
          TOTAL                                                        141
         Source: TIGTA review of 199 requests for workpapers for Trust Fund
         Recovery Penalty assessments.

         We did not receive a response for 58 (29.1 percent) of our
         199 requests. We followed up with the local field offices to
         determine why requests were not completed. Table 5
         presents the reasons that the IRS offices did not respond to
         our requests for these records.




                                                                       Page 10
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

           Table 5: Reasons Provided by the IRS for Not Responding to
         Requests for Trust Fund Recovery Penalty Assessment Workpapers
                                                                     Number of
                        Reason Request Not Completed
                                                                      Requests

          Staffing not available or other work priorities              27
          Indicated request was completed but could not confirm
                                                                       12
          when and where the tax records were sent
          Could not find tax records in the local office or at the
                                                                       10
          Federal Records Center
          Still in the process of locating tax records                  5

          Tax record had been destroyed                                 2

          Previously sent to an IRS employee before our request         2

          TOTAL                                                        58
         Source: TIGTA review of 199 requests for workpapers for Trust Fund
         Recovery Penalty assessments.

         If a taxpayer questions, appeals, or otherwise challenges the
         assessment of the Trust Fund Recovery Penalty, it is critical
         for the IRS to be able to locate and timely retrieve the
         related workpapers. Employees from the Office of the
         National Taxpayer Advocate indicated that problems
         obtaining the workpapers for Trust Fund Recovery Penalty
         assessments caused the IRS to use additional resources in an
         attempt to reconstruct the workpapers. This delay in
         resolving a taxpayer’s problem can also lead to the Federal
         Government abating the penalty if the information cannot be
         reconstructed. A considerable amount of time on the part of
         IRS employees is used to document the basis for the
         penalties assessed. Loss of this work due to inadequate
         storage and retrieval procedures is a waste of Federal
         Government resources.

         Recommendations

         2. The Chief, AWSS, and the Commissioner, SB/SE
            Division, should update procedures to include
            instructions for requesting workpapers for Trust Fund
            Recovery Penalty assessments. This should include
            guidance for determining to which local field office a
            request should be sent.


                                                                       Page 11
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records

         Management’s Response: The SB/SE Division is finalizing
         procedures that address the retrieval of workpapers for Trust
         Fund Recovery Penalty assessments and will remind
         employees that workpapers should be filed in the office
         where the penalty was assessed. Additionally, the AWSS
         developed online training and interactive process guides that
         will be available to SB/SE Division employees.
         3. The Chief, AWSS, and the Commissioner, SB/SE
            Division, should ensure the quality and timeliness of the
            IRS Records Management Program by developing a
            method to track specific requests for workpapers for
            Trust Fund Recovery Penalty assessments that will
            assign accountability, respond to customer problems,
            and provide management information for the Program.
         Management’s Response: The SB/SE Division will attempt
         to modify an existing computer system that automates the
         document retirement process of workpapers for Trust Fund
         Recovery Penalty assessments. If the SB/SE Division is
         unable to modify the existing computer system, it will work
         with the AWSS to identify other alternatives.




                                                              Page 12
                               Better Procedures Are Needed to Locate,
                                  Retrieve, and Control Tax Records

                                                                                                    Appendix I


                          Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether the Internal Revenue Service
(IRS) has an adequate system to ensure tax records can be located and retrieved timely. To
accomplish our objective, we:
I.      Determined if the IRS has developed policies and guidelines to ensure compliance with
        Federal Government rules and regulations regarding tax records retrieval by reviewing
        various laws, executive orders and directives, and the IRS Internal Revenue Manual, and
        conducting discussions with the Servicewide Records Coordinator and selected records
        managers, service center records coordinators, and information resource coordinators.
II.     Determined if the IRS has an effective process for retrieval of tax records by reviewing
        the Integrated Data Retrieval System (IDRS).1
III.    Discussed customer satisfaction with various IRS divisions and functions that routinely
        request tax records to determine if they have experienced problems retrieving tax records
        and if these problems adversely affected their operations. We also determined if they
        kept information on the number or percentage of tax records not received or not received
        timely. Our interviews included employees within the Large and Mid-Size Business
        Division, Small Business/Self-Employed Division, Wage and Investment Division,
        Criminal Investigation function, Office of the National Taxpayer Advocate, and Office of
        Appeals.
IV.     Determined if tax records can be readily located and retrieved timely by requesting a
        random sample of 1,587 tax records for taxpayer accounts involving individual
        examinations, business examinations, Earned Income Tax Credit adjustments, or Trust
        Fund Recovery Penalty2 assessments. These categories were selected based on
        discussions with IRS division and functional employees.
        A. Obtained Master File3 computer extracts for Tax Year 2001 taxpayer accounts with an
           individual examination (198,632 taxpayer accounts), business examination
           (4,317 taxpayer accounts), Earned Income Tax Credit adjustment (461,771 taxpayer
           accounts), or Trust Fund Recovery Penalty assessment (49,270 taxpayer accounts).
           To include more recent and older tax records in our test, we obtained a Master File

1
  The IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
2
  The Trust Fund Recovery Penalty is assessed against any person determined responsible in a business operation for
nonpayment of employment taxes that were withheld from employees’ wages or salaries. The responsible person(s)
are liable for the amount of the employment taxes not paid, and their assets can be used to satisfy this liability.
3
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
                                                                                                          Page 13
                               Better Procedures Are Needed to Locate,
                                  Retrieve, and Control Tax Records

             computer extract for taxpayer accounts with any tax year that had a Trust Fund
             Recovery Penalty assessment (382,346 taxpayer accounts).
        B. We selected random samples of taxpayer accounts from each of the individual
           examination, business examination, Earned Income Tax Credit adjustment, and Trust
           Fund Recovery Penalty assessment categories and requested the 1,587 tax records for
           tax returns and related information for the examinations, adjustments, and
           assessments using the IDRS and the document locator numbers. We determined the
           time from request to receipt of response and followed up with IRS employees
           regarding why some responses were not provided. Random samples were taken to
           ensure each item had an equal chance of being selected.

                                                                           Tax Records
                               Type of Tax Record Requested
                                                                            Requested

                         Individual tax returns4                                397

                         Individual examinations                                199
                         Earned Income Tax Credit adjustments5                  210
                         Trust Fund Recovery Penalty assessments6               397
                         Business tax returns                                   192
                         Business examinations                                  192

                         TOTAL                                                 1,587


V.      Determined if tax records can be readily located and retrieved timely by requesting a
        random sample of workpapers for cases on which the Trust Fund Recovery Penalty had
        been assessed. This type of tax record was selected based on discussions with IRS
        division and functional employees.
        A. Obtained a Master File computer extract for taxpayer accounts with any tax year that
           had a Trust Fund Recovery Penalty assessment (382,346 taxpayer accounts) and
           selected a random sample of 199 taxpayer accounts.




4
  Includes the requests for tax returns involving taxpayer accounts that had an individual examination or an Earned
Income Tax Credit adjustment.
5
  Includes an additional 12 requests for tax records on which the original Earned Income Tax Credit adjustment may
have been given a reassigned (i.e., different) document locator number.
6
  Includes the requests for tax records involving taxpayer accounts from the computer extract for Tax Year 2001 and
the computer extract for any tax year.
                                                                                                          Page 14
                  Better Procedures Are Needed to Locate,
                     Retrieve, and Control Tax Records

B. Identified the procedure to follow and requested the workpapers associated with the
   random sample of 199 Trust Fund Recovery Penalty assessments. We determined the
   time from request to receipt of response and followed up with IRS employees
   regarding why some responses were not provided.




                                                                               Page 15
                         Better Procedures Are Needed to Locate,
                            Retrieve, and Control Tax Records

                                                                                Appendix II


                           Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs)
Michael E. McKenney, Director
Scott P. Begley, Audit Manager
Aaron R. Foote, Audit Manager
Melvin Lindsey, Senior Auditor
Michael Della Ripa, Auditor
Angela Garner, Auditor
Carolyn D. Miller, Auditor




                                                                                      Page 16
                        Better Procedures Are Needed to Locate,
                           Retrieve, and Control Tax Records

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Chief, Agency-Wide Shared Services OS:A
Chief Information Officer OS:CIO
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Small Business/Self-Employed Division SE:S:CAS
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Real Estate and Facilities Management OS:A:RE
Associate Chief Information Officer, Business Systems Modernization OS:CIO:B
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaisons:
       Deputy Commissioner for Operations Support OS
       Deputy Commissioner for Services and Enforcement SE
       Chief, Agency-Wide Shared Services OS:A
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Customer Account Services, Small Business/Self-Employed Division
       SE:S:CAS
       Director, Customer Account Services, Wage and Investment Division SE:W:CAS
       Director, Real Estate and Facilities Management OS:A:RE




                                                                                  Page 17
   Better Procedures Are Needed to Locate,
      Retrieve, and Control Tax Records

                                             Appendix IV


Management’s Response to the Draft Report




                                                  Page 18
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records




                                          Page 19
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records




                                          Page 20
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records




                                          Page 21
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records




                                          Page 22
Better Procedures Are Needed to Locate,
   Retrieve, and Control Tax Records




                                          Page 23
